HHS/OIG, Audit -"Review of Internal Control Procedures at Dialysis Clinic, Inc. Facilities Located at Boston and Somerville, Massachusetts for the Calendar Year 1999,"(A-01-01-00544)
Department
of Health and Human Services
"Review of Internal Control Procedures at Dialysis Clinic, Inc. Facilities Located at Boston and Somerville, Massachusetts
for the Administration of Epogen for Calendar Year 1999," (A-01-01-00544)
June 25, 2002
Complete
Text of Report is available in PDF format (448 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Dialysis Clinic, Inc. (DCI) facilities have established adequate
internal controls and procedures to ensure claims submitted for Epogen (EPO) are supported and billed in accordance with
Medicare rules and regulations.  We reviewed the billing and medical records for 224 claims to determine whether EPO
services billed and reimbursed were supported. In a significant number of claims we found reconciliation inconsistencies
between the number of units of EPO prescribed in the written physician order, administered by the facility to the patient,
and billed to the Medicare program. We recommended that DCI strengthen its procedures to ensure that the claims submitted
for EPO are supported and billed in accordance with Medicare rules and regulations.